DOE/IG- 0465




 INSPECTION                        INSPECTION OF THE
   REPORT                      DEPARTMENT OF ENERGY’S
                               EXPORT LICENSE PROCESS
                                FOR FOREIGN NATIONAL
                                VISITS AND ASSIGNMENTS




                                     MARCH 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                                        March 23, 2000



MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (signed)
               Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of the Department of Energy’s
               Export License Process for Foreign National Visits and Assignments,”
               DOE/IG-0465

BACKGROUND

The Fiscal Year 2000 National Defense Authorization Act provided that not later than March 30
of each year, beginning this year, the President shall submit to Congress an annual report on the
United States (US) Government’s policies and procedures with respect to the export of
technologies and technical information with potential military applications to countries and
entities of concern. Under the Act’s provisions, to assist in this process, annual audits in this
area are to be conducted by the Inspectors General of the Departments of Energy, Commerce,
Defense, and State. An interagency working group, comprised of representatives from the
Offices of Inspector General of Energy, Commerce, Defense, and State, selected the export
license process for foreign national visitors and assignees, referred to as the “deemed” export
license process, as the topic for the year 2000 audit. Any release to a foreign national of
technology or software that is subject to the Export Administration Regulations is “deemed to be
an export” to the home country of the foreign national. Release includes, among other things,
visual inspection by foreign nationals of US-origin equipment and facilities and oral exchange of
information.

The purpose of our inspection was to review actions by the Department of Energy (DOE) in
response to selected concerns regarding deemed exports identified by this office during an
interagency inspection of the Federal Government’s export license review process, which was
completed in June 1999. The objectives of our current inspection were to review actions taken
by the Department to resolve issues associated with DOE’s deemed export license process, and
to review actions taken at selected DOE sites to implement new procedures regarding the
deemed export license process.

RESULTS OF INSPECTION

Although DOE management has improved the process for determining whether an export license
application may be required for the visit or assignment of a foreign national to a DOE site, we
concluded that additional actions are needed. We found that the Department has not received
clarification of guidance from the Department of Commerce regarding when a visit or
assignment would require an export license. Also, the Department’s policy implementation
needs clarification regarding roles, responsibilities, and accountability for obtaining an export
license for the visit or assignment of a foreign national. We noted that the current DOE Notice
on foreign visits and assignments does not provide clear guidance regarding certain roles,
responsibilities, and requirements in the export license arena. These include, among others, the
responsibilities of the hosts of foreign nationals and the requirement to enter information on
foreign national visits and assignments into the Department’s central database.

In addition, we learned that DOE officials, because of shortcomings in DOE’s formal data
gathering system, are not aware of the precise number of foreign nationals visiting the
Department’s laboratories. This parallels an issue identified in our May 28, 1999, report on the
Department’s export license process titled “The Department of Energy’s Export Licensing
Process for Dual-use and Munitions Commodities,” DOE/IG-0445. That issue was the source of
concern to the Chairman of the Senate Governmental Affairs Committee, as expressed during a
June 1999 hearing on the Department’s export license process. We also found that, even though
an export license application was not submitted, the assignments of several foreign nationals at
one of the four locations included in our review might have required export licenses because of
the information being accessed or the citizenship or affiliation of the individuals. Again, this
parallels a critically important finding in our May 28, 1999, report.

In FY 2000, the Department established the National Nuclear Security Administration (NNSA).
A number of the program offices, Operations Offices, and National Laboratories, which were
included in this inspection, are now part of the NNSA organization. References in the report to
the Department of Energy and its activities include, as well, the NNSA.

MANAGEMENT REACTION

Management concurred or partially concurred with the recommendations and has initiated, or is
in the process of initiating, appropriate corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary
    Acting Under Secretary for Nuclear Security
INSPECTION OF THE DEPARTMENT OF ENERGY’S
EXPORT LICENSE PROCESS FOR FOREIGN
NATIONAL VISITS AND ASSIGNMENTS


TABLE OF
CONTENTS


              OVERVIEW


              Introduction and Objective………………………………… 1

              Observations and Conclusions……………………………             2

              BACKGROUND ………………………………….………… 3

              RESULTS OF INSPECTION

              Key Issues Regarding the Deemed
                 Export License Process ………………………………              4

                 Commerce Guidance Requires Clarification ……….    4

                 Energy Guidance Requires Additional
                   Clarification …………………………………………                 5

                 Foreign Nationals Might Have Needed
                    An Export License …………………….…………… 6

              Additional Issues Regarding Deemed Exports …………     7

              Other Matters ………………………………………………                    9

              MANAGEMENT REACTION ……………………………. 10

              INSPECTOR COMMENTS ……………………………… 11

              APPENDICES

              A. Scope and Methodology………………………………. 12

              B. Energy Notice Guidance Requires Clarification …… 14
Overview
INTRODUCTION                        Exports of commodities or technologies, without regard to whether
AND OBJECTIVE                       they may significantly contribute to the military potential of
                                    individual countries or combination of countries or enhance the
                                    proliferation of weapons of mass destruction, may adversely affect
                                    the national security of the United States (US). The National
                                    Defense Authorization Act for Fiscal Year 2000 1 contained a
                                    provision that not later than March 30 of each year beginning in
                                    the year 2000 and ending in the year 2007, the President shall
                                    submit to Congress an annual report to include, as a minimum, an
                                    audit by the Inspectors General of the Departments of Commerce,
                                    Defense, Energy and State of the policies and procedures of the US
                                    Government with respect to the export of technologies and
                                    technical information with potential military applications to
                                    countries and entities of concern. An interagency working group,
                                    comprised of representatives from the Offices of Inspector General
                                    of Commerce, Defense, Energy and State, selected the export
                                    license process for foreign national visitors and assignees, referred
                                    to as the “deemed” export license process, 2 as the topic for the year
                                    2000 audit.

                                    The purpose of our inspection was to review actions by the
                                    Department of Energy (Energy) in response to selected concerns
                                    regarding deemed exports identified by this office during an
                                    interagency inspection of the Federal Government’s export license
                                    review process. The interagency review was completed in June
                                    1999. The objectives of our current inspection were to: 1) review
                                    actions taken by Energy officials to resolve issues associated with
                                    Energy’s deemed export license process, and 2) review actions
                                    taken at selected Energy sites to implement new procedures
                                    regarding the deemed export license process.




1
    The National Defense Authorization Act for Fiscal Year 2000 also established the National Nuclear Security
    Administration (NNSA) with responsibilities for counterintelligence, intelligence, and security. A number of
    Department of Energy program offices, Operations Offices, and National Laboratories report, in whole or in part,
    to the NNSA. Any reference to the Department of Energy includes the NNSA.
2
    Release to a foreign national of technology or software that is subject to the Export Administration Regulations
    is “deemed to be an export” to the home country of the foreign national. Release includes, among other things,
    visual inspection by foreign nationals of US-origin equipment and facilities and oral exchange of information.

Page 1                                                       Inspection of the Department of Energy’s
                                                             Export License Process for Foreign
                                                             National Visits and Assignments
Overview
OBSERVATIONS      Although Energy’s management has improved the process for
AND CONCLUSIONS   determining whether an export license application may be required
                  for the visit or assignment of a foreign national to an Energy site,
                  additional actions are needed. Energy officials have not received
                  clarification of guidance from the Department of Commerce
                  (Commerce) regarding when a visit or assignment would require
                  an export license. Also, Energy’s policy implementation needs
                  clarification regarding roles, responsibilities, and accountability for
                  obtaining an export license for the visit or assignment of a foreign
                  national, which is evidenced by the lack of clarity in the Energy
                  Notice on foreign visits and assignments of certain roles,
                  responsibilities, and requirements. These include, among others,
                  the responsibilities of the hosts of foreign nationals and the
                  requirement to input information on foreign national visits and
                  assignments into Energy’s central database. In addition, we found
                  that, even though an export license application was not submitted,
                  the assignments of several foreign nationals at one of the four
                  locations included in our review might have required an export
                  license because of the information being accessed or the
                  individuals’ citizenship or affiliation. This parallels a critically
                  important finding in our May 28, 1999, report titled “The
                  Department of Energy’s Export Licensing Process for Dual-use
                  and Munitions Commodities,” DOE/IG-0445. We also learned
                  that Energy officials cannot provide the precise number of foreign
                  nationals visiting Energy laboratories. Again, this parallels an
                  issue that was identified in our May 28,1999, report and which was
                  the source of concern to the Chairman of the Senate Governmental
                  Affairs Committee, as expressed during a June 1999 hearing on
                  Energy’s export license process.




Page 2                                             Observations and Conclusions
BACKGROUND                        As part of an interagency review of the US Government’s export
                                  licensing process, this office issued a report in May 1999
                                  concerning the Department’s export license process for dual-use
                                  and munitions commodities. In that report, we discussed: 1) the
                                  lack of clarity in Commerce guidance (as promulgated in the
                                  Export Administration Regulations) and Energy guidance
                                  regarding when a deemed export license would be required for an
                                  assignment regarding a foreign national; 2) concerns that some
                                  hosts at Energy laboratories 3 were not aware of, or did not
                                  understand, the requirements for deemed export licenses, did not
                                  appear to appropriately exercise their host responsibilities, or had
                                  not submitted export license applications for certain foreign
                                  national assignees, even though an export license may have been
                                  required; and 3) our inability to determine which Energy
                                  organization had management responsibility for the deemed export
                                  license process. As a result of our review, the Under Secretary of
                                  Energy established an Export Control Task Force to review issues
                                  we had identified regarding the deemed export license process.
                                  Since we issued our report, Energy has established the Office of
                                  Security and Emergency Operations. This office includes, among
                                  other organizations, the Energy Office of Foreign Visits and
                                  Assignments, which is responsible for promulgation of policy and
                                  guidance on foreign visits and assignments.




3
    The OIG review included four Energy laboratories: Los Alamos National Laboratory, Lawrence Livermore
    National Laboratory, Oak Ridge National Laboratory, and Sandia National Laboratory-Albuquerque.


Page 3                                                                                       Background
Results of Inspection
KEY ISSUES               We concluded that Energy management has made improvements in
REGARDING THE            Energy’s process for determining whether an export license
DEEMED EXPORT            application may be required for a foreign national visit or
LICENSE PROCESS          assignment to an Energy site. Training has been implemented for
                         hosts of foreign nationals regarding deemed export issues and
                         associated host responsibilities; awareness has been heightened
                         among Energy and Energy contractor employees regarding export
                         control concerns and requirements regarding the deemed export
                         license process; requests for visits and assignments of foreign
                         nationals that involve sensitive countries or sensitive subjects are
                         subjected to reviews for security, counterintelligence, intelligence,
                         and export control concerns; and information is being disseminated
                         within Energy concerning the subject of deemed exports. Despite
                         these positive steps, however, additional improvement is required.

Commerce Guidance        We found that guidance regarding deemed export licensing
Requires Clarification   requirements was not clear in all respects. Specifically, Energy
                         officials had not yet received clarification from Commerce of
                         certain guidance regarding deemed exports. We recommended in
                         our May 28, 1999, report that Energy coordinate with Commerce
                         to obtain guidance regarding when a visit or assignment of a
                         foreign national would require an export license. Energy officials
                         have held discussions with Commerce and received some limited
                         additional guidance. Also, Commerce Bureau of Export
                         Administration representatives provided guidance at a meeting of
                         the Energy contractors’ Export Control Coordinators Organization
                         in June 1999. Energy officials, however, felt that some of the
                         Commerce guidance provided at the meeting was in conflict with
                         the current understanding that public domain information and
                         fundamental research are outside the scope of the Export
                         Administration Regulations. On November 10, 1999, Energy
                         formally requested that Commerce review and concur with the
                         guidance on deemed exports provided by the Commerce
                         representatives at the June 1999 meeting. As of March 23, 2000,
                         Energy officials had not received a response from Commerce. We
                         understand that, because Energy has not received a clearer
                         definition of deemed exports from Commerce, the Deputy
                         Secretary has convened a group to prepare a definition of deemed
                         exports that will be sent to Commerce. This definition will be used
                         as the working definition until Commerce provides additional
                         guidance.

                         Based on our current and prior reviews, we concluded that deemed
                         export policy, specifically regarding public domain information
                         and fundamental research, is a key consideration for Energy




Page 4                                                               Results of Inspection
Results of Inspection
                                    activities. Thus, we recommend that the Acting Deputy
                                    Administrator for Defense Nuclear Nonproliferation:

                                    1. Ensure that senior Energy officials work with senior
                                       Commerce officials to assure clear, concise, and reliable
                                       guidance is obtained in a timely manner from Commerce
                                       regarding the circumstances under which a foreign national’s
                                       visit or assignment to an Energy site would require an export
                                       license.

Energy Guidance                     We also found that recently issued Energy guidance for foreign
Requires Additional                 national visits and assignments requires additional clarification
Clarification                       regarding deemed exports. Although revised Energy Nuclear
                                    Transfer and Supplier Policy (NTSP) Division4 guidelines, which
                                    were issued in July 1999, included a discussion of when a deemed
                                    export license might be required for foreign national visits and
                                    assignments, we found that certain roles and responsibilities that
                                    impact on the deemed export process were not clearly delineated in
                                    the recently issued Energy Notice, Department of Energy Notice
                                    (DOE N) 142.1, “UNCLASSIFIED FOREIGN VISITS AND
                                    ASSIGNMENTS,” approved July 14, 1999. 5

                                    As we found in our earlier review, the host is the focal point for
                                    ensuring that a deemed export license is received prior to a visit or
                                    assignment. However, the Energy Notice does not specifically
                                    state that the host may be required to apply for an export license
                                    for a visit or assignment of a foreign national. We believe that
                                    providing a comprehensive outline of primary host responsibilities
                                    and requirements in the Energy Notice would ensure the
                                    requirements are incorporated into Energy’s contracts, thereby
                                    enabling Energy officials to hold contractors accountable for
                                    implementation of the requirements.

                                    Also, we could find no specific requirement that Energy officials
                                    and Energy contractors were responsible for entering information
                                    into Energy’s central tracking system for foreign national visits
                                    and assignments to Energy facilities. Therefore, Energy NTSP
                                    Division officials, who review certain information that is “flagged”
                                    in the system, may not be receiving complete information on



4
    The NTSP Division, within the Office of the Acting Deputy Administrator for Defense Nuclear Nonproliferation,
    plays a major role in the formulation of US nuclear proliferation and export control policies and conducts export
    license review activities for nuclear dual-use and munitions commodities.
5
    DOE N 142.1 cancelled DOE Order 1240.2B, “UNCLASSIFIED FOREIGN VISITS AND ASSIGNMENTS BY
    FOREIGN NATIONALS.”


Page 5                                                                                 Results of Inspection
Results of Inspection
                                    certain foreign national visits and assignments for their deemed
                                    export review.

                                    The Energy Office of Foreign Visits and Assignments is
                                    responsible for managing a central tracking system for visits and
                                    assignments to Energy facilities. Currently, this system, the
                                    Foreign Access Records Management System (FARMS), flags
                                    certain information on foreign national visits and assignments for
                                    review by Energy’s NTSP Division. Of the four Energy
                                    laboratories that we visited, only Lawrence Livermore National
                                    Laboratory (LLNL) and Oak Ridge National Laboratory (ORNL)
                                    appeared to be entering complete information into FARMS, while
                                    Los Alamos National Laboratory (LANL) and Sandia National
                                    Laboratory-Albuquerque (SNL-Albuquerque) were entering little,
                                    if any, information into FARMS. In the absence of complete data
                                    in FARMS, the Energy NTSP Division was unable to perform a
                                    review of requests from those laboratories for foreign national
                                    visits and assignments involving sensitive countries or sensitive
                                    subjects. As a consequence, decisions whether these foreign
                                    nationals might require a deemed export license in conjunction
                                    with a visit or assignment to either of the two laboratories are
                                    being made without the input or knowledge of the Energy NTSP
                                    Division.

                                    We were advised that Energy is developing a revised Notice
                                    covering foreign visits and assignments. Based on the concerns
                                    discussed above, we recommend that the Director, Office of
                                    Security and Emergency Operations, ensure that the revised
                                    Energy Notice:

                                    2. Includes the principal roles and responsibilities for hosts of
                                       foreign national visitors and assignees, and

                                    3. Includes a requirement for Energy and Energy contractor
                                       officials to enter required foreign national visit and assignment
                                       information into FARMS, or a designated central data base, in
                                       a complete and timely manner.

Foreign Nationals                   We also reviewed a small, judgmental sample at each of the four
Might Have Needed                   Energy laboratories of the documentation6 processed for proposed
An Export License                   assignments of foreign nationals from sensitive countries. As we
                                    found in our earlier review, the assignments of several foreign
                                    nationals at one of four laboratories included in our review might
                                    have required an export license application because of the
                                    information being accessed or the individual’s citizenship.
6
    DOE Form IA-473, “Request for Foreign National Unclassified Visit or Assignment,” or its equivalent.


Page 6                                                                                Results of Inspection
Results of Inspection
                                      Our judgmental sample, which was limited to foreign nationals
                                      from countries on the Energy “Sensitive Countries List” issued in
                                      July 1999, consisted of the documentation for the proposed visits
                                      and assignments of 6 foreign nationals at LANL, 10 foreign
                                      nationals at LLNL, 9 foreign nationals at ORNL, and 6 foreign
                                      nationals at SNL-Albuquerque. The documentation was reviewed
                                      by Energy analysts who are involved in reviewing export license
                                      applications for Energy’s NTSP Division. The Energy analysts did
                                      not believe an export license would have been required in
                                      conjunction with the proposed assignments of foreign nationals at
                                      LANL, LLNL, or SNL-Albuquerque. However, Energy analysts
                                      in the Y-12 National Security Program Office at the Oak Ridge site
                                      said that the proposed assignments of 4 of the 9 foreign nationals at
                                      ORNL might have the potential for requiring an export license.
                                      According to a Y-12 National Security Program Office official, his
                                      office had not previously reviewed the requests for the proposed
                                      assignments of the 9 foreign nationals.

                                      Therefore, we recommend that the Manager, Oak Ridge
                                      Operations Office:

                                      4. Ensure that requests for foreign national visits and assignments
                                         at the Oak Ridge site involving sensitive countries or sensitive
                                         subjects are reviewed by the National Security Program Office
                                         to assist in identifying those foreign nationals who might
                                         require an export license in conjunction with their visit or
                                         assignment.

ADDITIONAL ISSUES                     We found that the current Energy Notice does not always identify
CONCERNING                            the individual or organization responsible for a required action.
DEEMED EXPORT                         For example, as in our earlier review, we are still unable to
                                      determine, with certainty, which Energy organization, if any, has
                                      management responsibility for the deemed export license process.
                                      Although the Energy Notice assigns responsibilities for the
                                      implementation of the unclassified foreign visits and assignments
                                      process, there is no indication which Energy organization is
                                      responsible for the deemed export license process. Also, although
                                      the Energy Notice requires organizations that sponsor unclassified
                                      foreign national visits and assignments to report certain
                                      information to “DOE Headquarters to support the Departmental
                                      information needs,” the Energy Notice does not identify the
                                      Headquarters organization that is to receive the information. In
                                      addition, the Energy Notice requires coordination of certain
                                      foreign national visits and assignments 7 with, among others, the

7
    Visits and assignments that require access by a foreign national to a security area or a sensitive subject, or require
    access to a site by a foreign national from a sensitive country.


Page 7                                                                                     Results of Inspection
                                   export control organization. However, the Energy Notice does not
                                   clearly identify the “export control organization,” or the role of the
                                   organization in the coordination process, resulting in confusion and
                                   possibly incomplete reviews of foreign national visit and
                                   assignment requests. (See Appendix B for a detailed discussion of
                                   this issue.)

                                   Therefore, we recommend that the Director, Office of Security and
                                   Emergency Operations:

                                   5. Ensure that the requirements in the revised Energy Notice for
                                      unclassified foreign national visits and assignments are clearly
                                      identified and assigned to responsible officials or
                                      organizations.

                                   We interviewed hosts8 at each of the four Energy laboratories and
                                   found that, in general, the hosts were aware of their responsibilities
                                   and had received guidance and/or training regarding the deemed
                                   export process. However, we also found that guidance may be
                                   required regarding the appropriate level of oversight that a host
                                   should provide for the foreign national being hosted. At LLNL,
                                   for example, we were told that it is not uncommon for some hosts
                                   to have little contact with individuals they hosted. Of the nine
                                   LLNL hosts that we interviewed, one acknowledged having had no
                                   contact with the foreign national who was hosted. While we
                                   recognize that the level of oversight of a foreign national provided
                                   by a host needs to be considered on a case by case basis, some
                                   guidance in this area would be helpful. Because of the reliance on
                                   the host for actions relating to deemed export license decisions, the
                                   appropriate level of oversight provided by hosts is, in our
                                   judgment, an important matter.

                                   Therefore, we recommend that the Acting Deputy Administrator
                                   for Defense Nuclear Nonproliferation:

                                   6. Ensure that guidance issued by the NTSP Division to advise
                                      hosts of their responsibilities regarding foreign nationals
                                      includes the appropriate level of oversight to be provided by
                                      the host during the period of the visit or assignment.




8
    We interviewed a total of 37 hosts. Some had been interviewed for our previous inspection. The remainder were
    individuals that hosted foreign nationals since July 14, 1999, the effective date of the current Energy Notice.


Page 8                                                                                Results of Inspection
OTHER MATTERS                       In June 1999, the Senate Governmental Affairs Committee held a
                                    hearing on Energy’s dual-use and munitions export control
                                    process. The Energy Inspector General testified at that hearing and
                                    our 1999 report on export control issues was a primary topic at the
                                    hearing. During the hearing, the Committee expressed concern
                                    with Energy’s inability to provide the precise number of foreign
                                    nationals visiting certain Energy laboratories. We addressed this
                                    subject during our current review and found that Energy still was
                                    unable to provide this information.

                                    We were advised by an official in Energy’s Office of Foreign
                                    Visits and Assignments that Energy cannot obtain the number of
                                    foreign nationals who have visited or have been assigned, or who
                                    are currently visiting or assigned, to Energy laboratories or other
                                    entities. According to the official, the current Energy policy does
                                    not require the laboratories to enter data into the FARMS database.
                                    Further, we were told that some Energy laboratories contend they
                                    do not have the resources to enter data into both Energy’s database
                                    as well as their own. We were advised that even if Energy officials
                                    requested information from each of the laboratories pertaining to
                                    the number of foreign national visitors/assignees for a specific
                                    period, the numbers would be unreliable because each laboratory
                                    records the information differently. 9

                                    We recommend, therefore, that the Director, Office of Security and
                                    Emergency Operations, revise Energy policy regarding foreign
                                    national visits and assignments to ensure that:

                                    7. Consistent information is being maintained by Energy sites
                                       regarding foreign nationals visiting or assigned to work at the
                                       site, and

                                    8. All Energy sites having foreign national visitors or assignees
                                       are required to enter information regarding the visits or
                                       assignments into FARMS or a designated central Energy
                                       database.




9
    Some Energy laboratories do not record visits/assignments of foreign nationals who perform work outside the
    property protection area, which is the fenced-in area surrounding the laboratory that serves to protect government
    property.


Page 9                                                                                           Other Matters
MANAGEMENT   In comments dated March 10, 2000, to our draft report, the Acting
REACTION     Deputy Administrator for Defense Nuclear Nonproliferation stated
             that our report accurately depicts the scope of the “deemed export”
             challenge to the Department and “highlights the need for clarity of
             responsibilities in the Energy Notice, speedy establishment of a
             functioning FARMS data base, and Commerce clarification of its
             ‘deemed exports’ rule . . . .” The Acting Deputy Administrator
             concurred with Recommendation 1 and stated that Energy has
             drafted guidance for discussion by Energy senior management with
             Commerce counterparts. This interaction is intended to establish a
             precedent for future Energy-Commerce cooperation to provide
             further, more detailed guidance. Also, the Acting Deputy
             Administrator concurred, in part, with Recommendation 6. She
             stated, however, that NTSP Division guidance cannot substitute for
             the on-site site supervision of export control/tech transfer officials
             at the laboratories and that site security officials must oversee and
             enforce limits placed on visitors. She believed that any other
             arrangement would usurp the responsibility of laboratory managers
             and operations office managers in ensuring appropriate oversight
             of visitors.

             In comments dated February 28, 2000, to our draft report, the
             Director, Office of Foreign Visits and Assignments, concurred
             with the findings and recommendations of the draft report.
             Specifically, he concurred with the recommendations concerning
             issues of foreign visit and assignment policy and stated that the
             corrective or remedial action(s) recommended are consistent with
             the current and ongoing initiative to update and clarify foreign visit
             and assignment policy. He also concurred with the
             recommendations on issues related to the data system supporting
             the foreign visit and assignment program and stated that “the
             corrective or remedial actions recommended, are consistent with
             the current and on-going initiative to update FARMS and
             concurrently to develop a new centralized tracking system to
             improve the accuracy, consistency, and accessibility of data
             maintained for foreign visits and assignments throughout the DOE
             [Energy] complex.” Regarding recurring and crosscutting
             deficiencies identified in the draft report related to the maintenance
             and management of foreign visit and assignment information, he
             stated that “the findings, conclusions and recommendations of the
             draft report lead to improvements which will in turn, greatly
             enhance and improve the overall quality of information managed
             through the Office of Foreign Visits and Assignments.”

             In comments dated March 16, 2000, to our draft report, the Chief
             Financial Officer, Oak Ridge Operations Office, concurred with



Page 10                                                Management Reaction
            Recommendation 4. She stated that the recommendation will be
            implemented through a new organizational arrangement effective
            April 1, 2000.

INSPECTOR   We believe the actions by management are responsive to our
COMMENTS    recommendations. Regarding the comments on Recommendation
            6 by the Acting Deputy Administrator for Defense Nuclear
            Nonproliferation, we do not disagree that laboratory managers and
            operations office managers are ultimately responsible for ensuring
            appropriate oversight of visitors. However, we believe that
            guidance from the NTSP Division regarding factors that managers
            should consider when determining the appropriate level of
            oversight of foreign national visitors or assignees would ensure
            consistency in the degree of oversight provided for foreign
            nationals across the Energy complex.




Page 11                                               Inspector Comments
Appendix A
SCOPE AND     We conducted the fieldwork portion of our review during the
METHODOLOGY   period of October 1999 to December 1999 at Department of
              Energy (Energy) Headquarters and four Energy laboratories:
              Lawrence Livermore National Laboratory (LLNL), Los Alamos
              National Laboratory (LANL), Oak Ridge National Laboratory
              (ORNL), and Sandia National Laboratory - Albuquerque (SNL-
              Albuquerque). At Energy Headquarters, we interviewed officials
              from the following organizations:

              •   Nuclear Transfer and Supplier Policy Division, Office of
                  Nonproliferation and National Security [now the Office of
                  Defense Nuclear Nonproliferation], which is responsible for
                  developing export control guidance.

              •   Foreign Visits and Assignments Office, Office of Security and
                  Emergency Operations, which has the principal responsibility
                  for promulgation of policy and guidance on foreign visits and
                  assignments.

              •   Office of Counterintelligence, which performs indices checks
                  for visitors and assignees from sensitive countries.

              •   Office of Independent Oversight and Performance Assurance,
                  which has responsibility for oversight of the foreign visits and
                  assignments process.

              •   Energy’s Export Control Task Force, which was charged with
                  addressing export control issues.

              We also interviewed Energy operations office personnel and
              Energy laboratory contractor officials who were responsible for
              foreign visits and assignments and/or export controls, and
              members of Energy’s Export Control Coordinator’s Organization,
              which shares ideas and information about policies and procedures
              on export control issues. In addition, we interviewed hosts of
              recent foreign national visitors and assignees and re-interviewed
              hosts who were interviewed by the Office of Inspector General
              (OIG) as part of an earlier OIG review of Energy’s export
              licensing process for dual-use and munitions commodities.

              We reviewed the applicable laws, Executive orders, regulations,
              and departmental guidance regarding foreign visits and
              assignments and deemed exports. In addition, we analyzed data
              from samples of applications for visits and assignments of foreign
              nationals to selected Energy laboratories. Those samples included
              applications from LANL, LLNL, ORNL, and SNL-Albuquerque


Page 12                                               Scope and Methodology
Appendix A
             for visits and assignments of foreign nationals from sensitive
             countries.

             This inspection was conducted in accordance with the Quality
             Standards for Inspections issued by the President’s Council on
             Integrity and Efficiency.




Page 13                                              Scope and Methodology
Appendix B

          ENERGY NOTICE GUIDANCE REQUIRES CLARIFICATION

The following examples illustrate the need to clarify roles and responsibilities in Energy Notice
142.1, “UNCLASSIFIED FOREIGN VISITS AND ASSIGNMENTS.” For example, the Energy
Notice requires coordination of certain foreign national visits and assignments with, among others,
the export control organization. However, the Energy Notice does not clearly identify the “export
control organization,” or the role of the organization in the coordination process. The lack of clear
guidance regarding this requirement has led to confusion and possibly incomplete reviews of foreign
national visits and assignments requests.

An official who managed foreign national visits and assignments at one of the Energy
laboratories said that the lack of roles and responsibilities in the Energy Notice has led to
confusion, as different offices are defining their own roles and responsibilities. He said, for
example, that Nuclear Transfer and Supplier Policy (NTSP) Division officials feel that they are
charged with export control review for sensitive subjects and their concurrence is required. He
also said that officials in the Energy Office of Defense Programs (now the Office of the Acting
Deputy Administrator for Defense Programs) feel they have a concurrence role. According to
the Energy Notice, however, the laboratory director is the approving authority and no
concurrence is required.

Also, although laboratories had final approval authority for foreign national visits and
assignments, we were told by an Energy NTSP Division official that her office wanted to review
foreign national visits and assignments involving sensitive countries or sensitive subjects for
nonproliferation and export control concerns. These visits and assignments were to be flagged in
the Foreign Access Records Management System (FARMS) for review by the NTSP Division.
This requirement is not reflected in the current Energy Notice. An official in the Office of
Foreign Visits and Assignments said, however, that only foreign national visits and assignments
involving sensitive countries and sensitive subjects are flagged in FARMS for NTSP Division
review. Therefore, only foreign national visits and assignments that involve both a sensitive
country and a sensitive subject are being flagged for NTSP Division review. As a result, visits
and assignments that involve either a sensitive country or sensitive subject might not be reviewed
by the NTSP Division.

In addition, the current Energy Notice does not assign an Energy organization the overall
responsibility for the deemed export license process. A concern raised in the May 28, 1999, Office
of Inspector General (OIG) report10 was the inability of the OIG to determine which Energy
organization, if any, had management responsibility for the deemed export license process. We do
not believe the current Energy Notice adequately addresses this concern. For example, the Energy
Notice assigns responsibility for implementation of the unclassified foreign visits and assignments
process to line management; responsibility for program reviews to the Office of Foreign Visits and
Assignments and the Office of Counterintelligence; and responsibility for independent oversight of

10
     “The Department of Energy’s Export Licensing Process for Dual-use and Munitions Commodities,”
     DOE/IG-0445.


Page 14                                            Energy Notice Guidance Requires Clarification
Appendix B
the overall performance of the Foreign Visits and Assignments Program to the Office of Independent
Oversight and Performance Assessment. However, the Energy Notice does not address the OIG’s
earlier concern regarding which Energy organization is responsible for the deemed export license
process.




Page 15                                    Energy Notice Guidance Requires Clarification
                                                  IG Report No. DOE/IG-0465

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
